IN THE
SUPREME COURT OF THE UNITED STATES
No. ____________

OCTOBER TERM, 2020
_________________________________

DASHEME HOSLEY,
Petitioner,
- vs RICK HILL, Warden,
Respondent.
_________________________________

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 West Broadway, Suite 1130
San Diego, CA 92101
Telephone: (619) 699-5930
Attorney for Petitioner

QUESTION PRESENTED FOR REVIEW
In a prosecutorial misconduct claim based upon a
misstatement of law during closing argument, should
courts presume that the jury followed the trial court’s
correct instruction at the end of trial even if the trial judge
expressly ratified the misstatement at the time it occurred,
and its correct instruction at the close of trial did not
specifically address or correct its prior comment?

- Prefix -

TABLE OF CONTENTS
Authorities Cited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
Question Presented for Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Prefix
Petition for Writ of Certiorari. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Jurisdiction and Citation of Opinion Below . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Constitutional Provision at Issue . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Statement of Facts and Case. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. Trial. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. Direct Appeal and Collateral Attack . . . . . . . . . . . . . . . . . . . . . 10
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Appendix:
Exhibit “A” - Magistrate Judge’s Report and Recommendation
Exhibit “B” - District Court order denying section 2254 petition
Exhibit “C” - Ninth Circuit Court of Appeals memorandum
Exhibit “D” - Ninth Circuit order denying Petitioner’s
petition for rehearing and suggestion for rehearing en banc

i

TABLE OF AUTHORITIES
CASES
Brown v. Payton, 544 U.S. 133 (2005) . . . . . . . . . . . . . . . . . . . . . . . . 3,4,11,15-17
Darden v. Wainwright, 477 U.S. 168 (1986) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Doyle v. Ohio, 426 U.S. 610 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Greer v. Miller, 483 U.S. 756 (1987). . . . . . . . . . . . . . . . . . . . . . . . . . 3-4,11,13-18
Richardson v. Marsh, 481 U.S. 200 (1987) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Weeks v. Angelone, 528 U.S. 225 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11-14
STATUTES
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

ii

No. ____________

OCTOBER TERM, 2020
_________________________________

DASHEME HOSLEY,
Petitioner,
- vs RICK HILL, Warden,
Respondent
_________________________________

PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Petitioner respectfully prays that a writ of certiorari issue to review the
judgment of the United States Court of Appeals for the Ninth Circuit entered on
February 26, 2021. The Ninth Circuit denied Petitioner’s petition for rehearing, and
suggestion for rehearing en banc, on March 26, 2021.

JURISDICTION AND CITATION OF OPINION BELOW
On February 26, 2021, the Ninth Circuit affirmed Petitioner’s conviction
in an unpublished Memorandum opinion. [Ex “C”]. The Ninth Circuit denied
Petitioner’s petition for rehearing, and suggestion for rehearing en banc, on March
26, 2021. [Ex. “D”].

This Court has jurisdiction to review the Ninth Circuit’s

decision pursuant to 28 U.S.C. § 1254 and 28 U.S.C. § 2254(a).
CONSTITUTIONAL PROVISION AT ISSUE
U.S. Const. amend. V:
No person shall be . . . deprived of life, liberty, or property,
without due process of law; nor shall private property be
taken for public use, without just compensation.

2

INTRODUCTION
Petitioner asks the Court to grant review in the instant case to address
the Ninth Circuit’s application of the Court’s curative instruction decision in Greer
v. Miller, 483 U.S. 756 (1987), to the instant record. In Greer, the Court stated that
“[w]e normally presume that a jury will follow an instruction to disregard
inadmissible evidence inadvertently presented to it, unless there is an ‘overwhelming
probability’ that the jury will be unable to follow the court’s instructions . . . and a
strong likelihood that the effect of the evidence would be ‘devastating’ to the
defendant . . . .” Greer, 483 U.S. at 766 n.8. In Brown v. Payton, 544 U.S. 133, 14647 (2005), the Court found that an appropriate curative instruction may be sufficient
even if not timely provided.
In this case, the improperly introduced material took the form of
incorrect statements of law which the prosecutor made during closing argument, and
which went directly to Petitioner’s defense of voluntary manslaughter, imperfect selfdefense of another. Specifically, the prosecutor incorrectly stated that Petitioner’s
beliefs in support of this defense theory had to be reasonable when, in fact, no such
requirement exists.1 The trial judge, instead of providing a proper curative instruction
The two beliefs at issue were: (1) Petitioner actually believed that he or his
mother were in imminent danger of being killed or suffering great bodily injury;
and (2) Petitioner actually believed that the immediate use of deadly force was
1

3

at the time this misconduct occurred, expressly ratified the misconduct by incorrectly
advising the jury that the voluntary manslaughter instruction contained a
reasonableness requirement.
The Ninth Circuit affirmed the district court’s denial of section 2254
relief, finding under AEDPA review that the state court reasonably found that the
prosecutor’s misstatements of law did not violate due process. Citing to Greer for its
analysis of the trial court’s overall handling of the misconduct, and to Brown to
address the untimeliness of its actions, the Ninth Circuit found no prejudice because
the trial court provided the proper voluntary manslaughter instruction at the end of
the case, and also told the jury to follow its instructions rather than the prosecutor’s
statements. [Ex. “B” at 2-3].
This petition challenging the Ninth Circuit’s application of the Greer
presumption in its prejudice analysis should be granted because the Ninth Circuit
improperly discounted the significance of the trial court’s express ratification of the
misconduct at the time it occurred, and its failure to specifically correct its erroneous
instruction later. It is one thing when a trial court fails to take immediate action to
address misconduct and provides an appropriate curative instruction at a later time;
however, it is a completely different scenario when, at the time the misconduct
necessary to defend against the danger. [ER 22].
4

occurs, the trial court expressly ratifies the misconduct to the jury, and its later
instruction fails to correct or address the erroneous instruction explicitly. Because
“[l]anguage that merely contradicts and does not explain a constitutionally infirm
instruction will not suffice to absolve the infirmity[,]” Francis v. Franklin, 471 U.S.
307, 322 (1985), the Ninth Circuit’s application of Greer and resolution of this
important misconduct prejudice question directly conflicts with the relevant law of
the Court and requires review by the Court.
STATEMENT OF FACTS AND CASE
In 2008, Petitioner was living in San Leandro, CA, while his mother,
Carol Harris, lived about 45 minutes away in Modesto, CA with her husband, Karl
Johnson. In August 2008, Harris and Johnson were at home with friends drinking and
playing dominoes when she and Johnson began arguing. The argument escalated and
became physical, and Harris called Petitioner and hysterically told her son that
Johnson was beating her.
Petitioner subsequently tried to call his mother back to check on her but
she would not answer, so he went to Modesto to check on her. Petitioner was very
protective of his mother because of numerous incidents of domestic violence he had
witnessed as a young child. Petitioner had a friend drive him and two others to
Modesto. Petitioner took a handgun with him. At the house, Petitioner knocked on
5

the door, and after a few minutes, Johnson opened the door but Petitioner’s mother
was not present. After Johnson would not allow Petitioner to check on his mother,
Petitioner and Johnson had a confrontation during which Petitioner shot Johnson in
the torso. Johnson later died at the hospital.
A.

Trial
Petitioner was arrested and charged with first degree murder, during the

commission of which he personally used and discharged a firearm. Petitioner’s trial
defense was that he was not guilty of murder because he did not go to the house to
shoot Johnson, but rather, went there simply to check on his mother and he shot
Johnson after they had a confrontation at the door and he could not get inside the
house to check on his mother’s welfare. Under California law, Petitioner was not
guilty of murder, and was guilty of the lesser offense of voluntary manslaughter, if
he actually believed that his mother was in imminent danger of being killed or
suffering great bodily injury, and he actually believed that the immediate use of
deadly force was necessary to defend against the danger. Importantly, neither of
these beliefs had to be reasonable.
During closing argument, the prosecutor, on multiple occasions,
incorrectly stated that these two beliefs associated with voluntary manslaughter,
imperfect defense of others, had to be reasonable:
6

“Voluntary manslaughter is another verdict form you’re
going to receive, and that is where there is no malice, it’s
the finding of no malice harbored by the defendant in the
case. In that scenario, the killing occurred in self-defense
because the defendant believed he was in imminent danger
or because he believed it was a defense of others because
he believed that person was in imminent danger.
“Now, the key word here is imminent, ladies and
gentlemen. Imminent means now. There is no evidence to
demonstrate that [Harris] was in danger at the time that
[defendant] answered [sic ] the door and fired the gun at
[Johnson].... [¶] ... [¶]
“And the use of force that’s necessary to defend against the
danger. There is no evidence in this case to suggest that the
use of force in him shooting [Johnson] was necessary to
prevent any imminent danger. And because of that, ladies
and gentlemen, you also must believe that that belief is
reasonable, it’s unreasonable in light of all the facts laid
out before you—
“[DEFENSE COUNSEL]: Objection, Your Honor. That is
not the law. Unreasonable beliefs can support voluntary
manslaughter, that’s simply wrong.
“THE COURT: [Defense counsel], I’ll give you an
opportunity.
“[DEFENSE COUNSEL]: I understand, Your Honor. But
when she misstates the law, that needs to be pointed out,
and I need to make an objection.
“[PROSECUTOR]: Judge, it says right in the instruction
the belief must be reasonable.
“THE COURT: It’s there. Go ahead, [prosecutor].
7

“[PROSECUTOR]: Because it is not a reasonable belief in
this case, because of the evidence that you have before you,
you can take that verdict form and set it to the side,
because you are not going to need it. It’s a first degree
premeditated murder.”
[ER 19-20, 74-75].2
During rebuttal, the prosecutor incorrectly posited that the two beliefs
underpinning voluntary manslaughter, defense of others, had to be reasonable:
“[PROSECUTOR:] And the last thing when he talks about
manslaughter, [defense counsel] is talking about two
different kinds of manslaughter, he’s talking about
voluntary manslaughter and involuntary manslaughter—
“[DEFENSE COUNSEL]: If I might, Your Honor, that is
an incorrect statement. That is a voluntary manslaughter,
imperfect self-defense.
“THE COURT: Are you talking about her slide?
“[DEFENSE COUNSEL]: Yes, her slide incorrectly
states—
“[PROSECUTOR]: You know, he’s right. Actually, he’s
right. And I’ll just correct that right now.
“THE COURT: Not your words, but your slide?
“[PROSECUTOR]: You know what? He’s right. And I’m
going to correct that right now. It should say invol—I mean
vol. Excuse me. If I could just have a minute, folks.
“ER” refers to Appellant’s excerpts of record filed in the Ninth Circuit
Court of Appeals.
2

8

“So voluntary manslaughter under ... CalCrim 571 is under
imperfect self-defense. And, again, he doesn’t meet the
elements. Imminent danger of being killed or suffering
great bodily injury. Who is in imminent danger here—
“[DEFENSE COUNSEL]: Again, Your Honor, that is
furthermore wrong. It is at least one of those beliefs were
unreasonable.
“THE COURT: Just so you folks know, I will be reading
you the instructions, you will have a copy for you folks to
look at. Part of the instructions does indicate if there’s a
discrepancy between what the attorneys say and my
instructions that I read to you, you’re to accept the
instructions as they are read to you by me.
“[PROSECUTOR]: And the Judge is absolutely correct.
Just go with what the instruction says.
“So let’s talk about CalCrim 571, imperfect self-defense or
defense of another. Again, the point is he doesn’t meet the
elements under this either, and that is imminent danger of
being killed or suffering great bodily injury. [¶] ... [¶]
“And the second element is that the belief that deadly force
was necessary to stop that from happening, and at least one
of those beliefs was unreasonable. That’s correct.
Unreasonable. So I will change that slide as well. I just
don’t want to take the time to do it now. It is unreasonable,
at least one of those beliefs.
“Well, all of those beliefs are unreasonable, and none of
those elements have been met, because that’s not what the
facts support in the case....”
[ER 20-21, 76-77].
At the conclusion of the trial, the trial court provided a correct voluntary
9

manslaughter instruction to the jury. The trial court made no reference, however, to
its prior comments in response to the prosecutor’s misstatements of law to the jury
when it agreed that the reasonableness requirement was in the instruction. The jury
convicted Petitioner of first degree murder, and the trial court sentenced him to 75
years to life, plus five years, in prison.
B.

Direct Appeal and Collateral Attack
In his direct appeal, Petitioner raised three prosecutorial misconduct

claims, including the claim that he was denied his due process right to a fair trial
when the prosecutor committed highly prejudicial misconduct repeatedly misstating
the law regarding murder and manslaughter. [ER 57] . In May 2014, the California
Court of Appeal affirmed the judgment in a reasoned opinion. [ER 56-113]. It found
that the prosecutor had committed misconduct as alleged by Petitioner in each
instance, but found each occasion to be harmless. The California Supreme Court
summarily denied the petition for review. [ER 55].
Petitioner subsequently filed a section 2254 petition, raising the same
misconduct claims.

[ER 114-285].

In its findings and recommendation, the

magistrate judge recommended that the district court deny each of these claims. [ER
6-54]. As to the instant claim, the magistrate judge agreed that the prosecutor, on
multiple occasions, misrepresented the law of second-degree murder and voluntary
10

manslaughter based upon imperfect self-defense or defense of another. [ER 23-27].
The magistrate judge found, however, that there was no prejudice because at the end
of trial, the judge properly instructed the jury as to the applicable law. Id.
The district court adopted the magistrate judge’s findings and
recommendation in full, dismissed the petition, and denied a COA. [Ex. “B”]. The
Ninth Circuit issued a Certificate of Appealability on the issue of whether the
“prosecutor committed prejudicial misconduct.” [ER 1-2]. The Ninth Circuit
affirmed the district court in a Memorandum decision. [Ex. “C”]. As to the area of
prosecutorial misconduct raised herein, the panel found:
It was not contrary to or an unreasonable application of
federal law for the state court to conclude that the
prosecutor’s misstatements of law did not violate due
process. Generally, “[a] jury is presumed to follow its
instructions.” Weeks v. Angelone, 528 U.S. 225, 234
(2000) (citation omitted). This presumption extends to
curative instructions, Greer v. Miller, 483 U.S. 756 766 n.8
(1987) even when the curative instructions are not given
immediately after the error is made, see Brown v. Payton,
544 U.S. 133, 146-47 (2005). Here, the prosecutor
misstated the law regarding second degree murder and
imperfect self-defense during her closing argument and
rebuttal. The trial court then correctly instructed the jury
on the law and told the jury to follow the instructions rather
than the prosecutor’s statements. The prosecutor herself
also emphasized that the jury should follow the court’s
instructions rather than her statements of the law. Under
these circumstances, it was not “objectively unreasonable,”
Lockyer, 538 U.S. at 76, for the state court to presume that
11

the jury followed the correct instructions, rendering the
prosecutor’s misstatements harmless.
[Ex. “C” at 2-3].
The Ninth Circuit denied Petitioner’s petition for rehearing and suggestion for
rehearing en banc without further comment. [Ex. “D”].

12

ARGUMENT
THE COURT SHOULD GRANT THIS PETITION TO DETERMINE
WHETHER THE GREER v. MILLER, 483 U.S. 756 (1987), PRESUMPTION
APPLIES IF A TRIAL COURT EXPRESSLY RATIFIES A
PROSECUTORIAL MISSTATEMENT OF LAW AT THE TIME IT
OCCURS AND ITS INSTRUCTIONS AT THE END OF TRIAL DO NOT
CORRECT ITS ERRONEOUS RATIFICATION
In both her closing argument and rebuttal, the prosecutor repeatedly
misstated the law regarding Petitioner’s imperfect defense of others theory of defense
at trial. The government argued that Petitioner was guilty of a premeditated first
degree murder. The jury, however, was given a range of lesser options, including
acquittal based upon imperfect self-defense or defense of another. Given this
framework, the jury was required to determine whether Petitioner came to the house
with the intent to kill Johnson, or whether he shot Johnson based on his genuine
belief that his mother was in imminent danger and he had to use this force to enter the
house to protect her from the threat.
In her argument that the jury should reject this lesser-included option,
the prosecutor repeatedly told the jury that Petitioner’s belief that his actions were
necessary to defend against the danger to his mother had to be reasonable. [ER 1921]. These were incorrect statements of law, and went straight to the key trial issue
of Petitioner’s intent and state of mind at the time of the shooting. Defense counsel

13

immediately objected, affording the trial court its turn to address the misstatements
and protect Petitioner’s right to a fundamentally fair trial. See Darden v. Wainwright,
477 U.S. 168, 181 (1986) (a prosecutor’s improper comments violate the Constitution
if they “so infect the trial with unfairness as to make the resulting conviction a denial
of due process”). This did not happen at the time, as the trial court agreed with the
prosecutor and expressly told the jury that reasonableness requirement was in the
instruction. [ER 19-20]. Nor did it happen at the end of trial, when the trial court
provided a correct voluntary manslaughter instruction, but failed to address or correct
its earlier erroneous ruling in any fashion. [ER 21-22, 77-79].
A jury is presumed to follow its instructions. Weeks v. Angelone, 528
U.S. 225, 234 (2000) (upholding instruction regarding consideration of mitigating
evidence in capital case).

The rule that juries are presumed to follow their

instructions is a pragmatic one, rooted less in the absolute certitude that the
presumption is true than in the belief that it represents a reasonable practical
accommodation of the interests of the state and the defendant in the criminal justice
process. Richardson v. Marsh, 481 U.S. 200, 211 (1987) (holding that Confrontation
Clause is not violated by the admission of a non-testifying co-defendant’s confession
with a proper limiting instruction).
The Court addressed this presumption in the context of prosecutorial
14

misconduct curative instructions in Greer, 483 U.S. at 759. There, the prosecutor
committed misconduct by attempting to violate the rule of Doyle v. Ohio, 426 U.S.
610 (1976), by asking an improper question during the cross-examination of
defendant in the presence of the jury. Defense counsel objected, and the trial court
sustained defense counsel’s objection to the prosecutor’s question. Id. at 766. The
trial court then provided an immediate curative instruction, as well as another
instruction at the end of trial that the jury should “disregard questions . . . to which
objections were sustained.” Id. at 766 n.8. The Court denied Petitioner relief, writing
that “[w]e normally presume that a jury will follow an instruction to disregard
inadmissible evidence inadvertently presented to it, unless there is an ‘overwhelming
probability’ that the jury will be unable to follow the court’s instructions, and a strong
likelihood that the effect of the evidence would be ‘devastating’ to the defendant.”
Id. at 767 n.8 (citations omitted).
In Brown v. Payton, 544 U.S. 133, 146-47 (2005), the Court addressed
the situation where the trial court failed to take immediate curative action to address
misconduct. There, the prosecutor improperly argued to jurors during his closing that
they should not consider any of defendant’s post-crime mitigation evidence in his
capital case. Id. at 143-46. Defense counsel immediately objected, and after a sidebar, the trial court admonished the jury only that “the comments by both the
15

prosecution and the defense are not evidence. You’ve heard the evidence and, as I
said, this is argument. And it’s to be placed in its proper perspective.” Id. at 146.
The Court found that although the trial judge should have immediately
advised the jury that it could consider defendant’s post-crime mitigating evidence and
allowed counsel simply to argue that evidence’s persuasive force, reversal under
AEDPA deference was not required. Id. at 146-47. The Court found that “[e]ven in
the face of the trial court’s failure to give an instant curative instruction, however, it
was not unreasonable to find that the jurors did not likely believe Payton’s mitigation
evidence beyond their reach. The jury was not left without any judicial direction.”
This was due to the fact that prior to deliberations, the trial court instructed the jury
to consider all evidence received “during any part of the trial in this case, except as
you may be hereafter instructed,” and it was not instructed to disregard anything. Id.
at 146-47. Additionally, the trial court also instructed the jury properly as to which
evidence it could consider that might lessen a defendant’s culpability. Id.
Greer and Brown, taken together, stand for the general rule that courts
should presume that a jury followed an appropriate curative instruction to disregard
improperly presented evidence or argument, even if the instruction is not provided at
the time the misconduct occurs. Greer, 483 U.S. at 766 n.8; Brown, 544 U.S. at 14647. The instant case, however, presents an additional element to this curative
16

instruction analysis which the Court addressed in Francis, 471 U.S. at 322. In
Francis, the Court examined whether the jury charge on the issue of intent could have
been interpreted by a reasonable juror as a mandatory presumption that shifted to the
defendant a burden of persuasion on the intent element of the offense. Id. at 322-26.
In finding that contradictory instructions on intent provided by the trial court required
reversal, the Court found that “[n]othing in these specific sentences or in the charge
as a whole makes clear to the jury that one of these contradictory instructions carries
more weight than the other.” Id. at 322. “Language that merely contradicts and does
not explain a constitutionally infirm instruction will not suffice to absolve the
infirmity.” Id.
The instant record presents important and unresolved questions
regarding application of the Greer curative instruction presumption. All courts which
have reviewed Petitioner’s claim have agreed that the prosecutor committed
misconduct in misstating the law as to voluntary manslaughter, and that the trial
court’s immediate reaction to the misconduct was incorrect and actually ratified the
prosecutor’s misstatements. While the Ninth Circuit found that, pursuant to Greer
and Brown, this misconduct failed to prejudice Petitioner because the trial court
provided proper voluntary manslaughter instructions at the end of the case, this
conclusion is in conflict with Francis because the trial court’s final instructions which
17

merely “contradict[ed] and d[id] not explain [its] constitutionally infirm instruction
[did] not suffice to absolve the infirmity.” Francis, 471 U.S. at 322.
In addition, this unreconciled conflict between the trial court’s comments
at the time of the misconduct and its instructions at the end of trial implicates the
language from Greer which applies the presumption to curative instructions to
“disregard inadmissible evidence inadvertently presented to it[.]” Greer, 483 U.S. at
766 n.8. By simply providing the jury with proper instructions as to voluntary
manslaughter at the end of the case, and failing to direct the jury specifically to
disregard the comments of the prosecutor and its improper ratification of them, the
record is void of any directive from the trial court to “disregard [the argument or
instruction] presented to it.” Greer, 483 U.S. at 766 n.8. Petitioner asks the Court
to review this case to correct the Ninth Circuit’s application of Greer which is
directly contrary to Francis, and also to provide lower courts guidance regarding
application of the Greer presumption generally.

18

CONCLUSION
For the above reasons, Petitioner respectfully requests that the Court grant the
instant petition to review the decision of the Ninth Circuit Court of Appeals.
Respectfully submitted,

Dated: May 28, 2021

/s/ Gary P. Burcham
GARY PAUL BURCHAM
BURCHAM & ZUGMAN
402 West Broadway, Suite 1130
San Diego, CA 92101
Telephone: (619) 699-5930
Attorney for Petitioner

19

